            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


         SINGLE AUDIT OF THE
    COMMONWEALTH OF PUERTO RICO
      DEPARTMENT OF THE FAMILY
         FOR THE FISCAL YEAR
          ENDED JUNE 30, 2008

       June 2011   A-77-11-00012




  MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                       SOCIAL SECURITY
MEMORANDUM

Date:      June 14, 2011                                                   Refer To:

To:        Frances Cord
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico
           Department of the Family for the Fiscal Year Ended June 30, 2008 (A-77-11-00012)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the Commonwealth of Puerto Rico Department of the Family for the Fiscal Year
           ended June 30, 2008. Our objective was to report internal control weaknesses,
           noncompliance issues, and unallowable costs identified in the single audit to SSA for
           resolution action.

           Torres Llompart, Sanchez Ruiz L.L.P. performed the audit. The U.S. Department of
           Agriculture (USDA), cognizant agency, did not conduct a desk review. In reporting the
           results of the single audit, we relied entirely on the internal control and compliance work
           performed by Torres Llompart, Sanchez Ruiz L.L.P. We conducted our review in
           accordance with the Council of the Inspectors General on Integrity and Efficiency’s
           Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget (OMB) assigns
           Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
           Disability Insurance (DI) and Supplemental Security Income programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Puerto Rico Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI program in accordance with Federal regulations. The
           DDS is reimbursed for 100 percent of allowable costs. The Puerto Rico Department of
           the Family (PRDF) is the DDS’ parent agency.
Page 2 – Frances Cord


The single audit reported that:

•   The expenditures submitted to SSA on the State Agency Report of Obligations for
    Social Security Administration Disability Programs (Form SSA-4513) exceeded the
    expenditures recorded in PRDF’s accounting records by $394,466 (Attachment A,
    Pages 1 and 2). The corrective action plan indicated the difference was related to
    how payroll expenses were recorded in the accounting records.1

    We recommend that SSA determine if the inaccurate reporting of expenditures on
    the Form SSA-4513 resulted in inappropriate reimbursements to the Puerto Rico
    DDS and, if so, request the return of any inappropriate reimbursements.

•   PRDF had multiple missing documents from personnel files and incorrectly charged
    payroll costs to programs (Attachment A, Pages 3 through 6). The corrective action
    plan indicated the Human Resources Office reviewed all personnel files and pending
    documentation was completed. In addition, the Human Resources Office will review
    annually all files to ensure that the documentation required is properly organized and
    included.

    We recommend that SSA ensure PRDF
    • corrects the personnel file deficiencies for Puerto Rico DDS staff and
    • establishes adequate procedures to monitor payroll transactions. 2

•   PRDF charged expenditures totaling $883,312 to SSA for obligations incurred after
    the period of availability (Attachment A, Pages 7 through 9). The corrective action
    plan indicated a new and complete record-keeping system was implemented that will
    contribute to the proper treatment of obligations.

    We recommend that SSA determine whether the obligations recorded after the
    period of availability resulted in unallowable charges and, if so, request a refund of
    the unallowable costs.3


1
  The corrective action plans contained in the Single Audit of the Commonwealth of Puerto Rico,
Department of the Family, for the Fiscal Year Ended June 30, 2008, were of very low print quality.
Therefore, the corrective action plans are not included in this report. By request, the Office of the
Inspector General (OIG) will provide a copy of the single audit report to SSA.
2
 We recommended corrective action on this finding to SSA in Management Advisory Report: Single Audit
of the Commonwealth of Puerto Rico, Department of the Family, for the Fiscal Year Ended June 30, 2006
(A-77-09-00011), issued August 5, 2009. However, SSA has not provided documentation of any
corrective action taken on this finding. Therefore, we repeat the prior recommendation.
3
 We recommended corrective action on this finding to SSA in Management Advisory Report: Single Audit
of the Commonwealth of Puerto Rico, Department of the Family, for the Fiscal Year Ended June 30, 2006
(A-77-09-00011), issued August 5, 2009 and Management Advisory Report: Single Audit of the
Commonwealth of Puerto Rico, Department of the Family, for the Fiscal Year Ended June 30, 2007
(A-77-09-00012), issued August 20, 2009. However, SSA has not provided documentation of any
corrective action taken on this finding. Therefore, we repeat the prior recommendation.
Page 3 – Frances Cord


In addition, the single audit reported PRDF did not have:

•   Adequate procedures and controls over the timing of cash draws for SSA’s disability
    program and therefore, did not comply with OMB Circular A-102 (Attachment A,
    Pages 10 through 13).

•   Sufficient accounting policies, procedures, and financial reporting practices including
    a lack of a self-balancing set of accounts and inappropriate monthly and year-end
    closing procedures (Attachment A, Pages 14 through 16).

•   An effective property and equipment system (Attachment A, Pages 17 and 18).

We made recommendations to SSA in prior reports for corrective action on these three
findings. 4 We confirmed that SSA had taken appropriate corrective actions to address
these findings. Therefore, we will not make recommendations on these findings.

The single audit also disclosed that PRDF’s filing system did not permit timely retrieval
of payment and other documents, and PRDF did not have internal control procedures to
timely detect and correct instances of noncompliance (Attachment B, pages 1
through 8). Although these findings were not specifically identified to SSA, they may
impact DDS operations. I am bringing this matter to your attention as it represents
potentially serious service delivery and financial control problems for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                             Patrick P. O’Carroll, Jr.

Attachments




4
 Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico, Department of the
Family, for the Fiscal Year Ended June 30, 2006 (A-77-09-00011), issued August 5, 2009 and
Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico, Department of the
Family, for the Fiscal Year Ended June 30, 2007 (A-77-09-00012), issued August 20, 2009.
Attachment A
Page 1 of 18
Attachment A
Page 2 of 18
Attachment A
Page 3 of 18
Attachment A
Page 4 of 18
Attachment A
Page 5 of 18
Attachment A
Page 6 of 18
Attachment A
Page 7 of 18
Attachment A
Page 8 of 18
Attachment A
Page 9 of 18
Attachment A
Page 10 of 18
Attachment A
Page 11 of 18
Attachment A
Page 12 of 18
Attachment A
Page 13 of 18
Attachment A
Page 14 of 18
Attachment A
Page 15 of 18
Attachment A
Page 16 of 18
Attachment A
Page 17 of 18
Attachment A
Page 18 of 18
Attachment B
  Page 1 of 8
Attachment B
  Page 2 of 8
Attachment B
  Page 3 of 8
Attachment B
  Page 4 of 8
Attachment B
  Page 5 of 8
Attachment B
  Page 6 of 8
Attachment B
  Page 7 of 8
Attachment B
  Page 8 of 8
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
